.,~ ~
( l­
'..
  -".

    ;,l'\t,ua
 +'~4'''VICIS.ÚS.
                           DEPARTMENT
                           DEPARTMENTOF
                                      OFHEALTH
                                        HEALTH&.
                                               &. HUMAN
                                                  HUMAN SERVICES
                                                        SERVICES                                                   Office of Inspector
                                                                                                                             Inspector General


                                                                                                                   Washington, D.C.
                                                                                                                   Washington,
                                                                                                                                       General


                                                                                                                               D.C. 20201
                                                                                                                                    20201





                                                                 MAY 1 9 209
                                                                 MAY     2009

                    TO:
                    TO: Charlene  Frizzera
                             Charlene Frizzera
                                     Acting Administrator
                                     centetO~d Services
                                     centetO~dServices


                    FROM:
                    FROM: oseph  E. E.
                              oseph Vengrin
                                       Vengrin
                                     Deputy Inspector General for Audit
                                                                  Audit Services
                                                                        Services


                    SUBJECT: Review of of
                               Review  Termination  Claim
                                          Termination Claimfor
                                                             forPostretirement
                                                                 PostretirementBenefit
                                                                                BenefitCosts
                                                                                        CostsMade
                                                                                             Made by
                                                                                                  by The
                                                                                                     The
                               Regence Group for the Utah Segment
                                                           Segment (A-07-08-00278)


                    Attached is an advance copy ofof our final report on the termination claim for postretirement
                            (PRB) costs made by The
                    benefit (PRB)  costs  made by The Regence
                                                       Regence Group
                                                                  Group(Regence)
                                                                         (Regence)for
                                                                                    forthe
                                                                                        theUtah
                                                                                            Utahsegment.
                                                                                                 segment. WeWe will
                                                                                                               wil
                    issue this report to Medicare Northwest within 55 business
                                                                       business days.
                                                                                 days.

                    Regence administered the Utah Medicare Part A and B operations under cost reimbursement
                    contracts with the Centers for Medicare & & Medicaid Services (CMS) until the contractual
                    relationship was
                                 was terminated
                                     terminated effective
                                                 effective November
                                                           November 30,     30, 2005.
                                                                                2005. Throughout the period of  of its
                    Medicare contracts, Regence accounted for the Utah postretirement benefit costs using the pay-       pay­
                    as-you-go method.
                    as-you-go  method. On
                                        On August 6, 6, 2008, Regence submitted a termination claim    claim of
                                                                                                              of$1,358,482
                                                                                                                $1 ,358,482 to
                    seek reimbursement
                          reimbursement for
                                         for future
                                             future PRB
                                                    PRB costs
                                                          costs that
                                                                 that itit had
                                                                           had not
                                                                                not incurred prior to the
                                                                                     incured prior    the termination of
                                                                                                                       of the
                    Medicare contracts.

                    Our objective was to determine whether Regence's
                                                           Regence's termination
                                                                      termination claim
                                                                                  claim for
                                                                                         for PRB
                                                                                             PRB costs
                                                                                                 costs associated
                                                                                                       associated
                    with the Utah Medicare Part A and B contracts was allowable for Medicare reimbursement.

                    Regence's entire termination claim of$1,358,482      of$I,358,482ininPRBPRBcosts
                                                                                                 costsfor
                                                                                                       for the
                                                                                                            the Utah
                                                                                                                Utah Medicare
                                                                                                                     Medicare Part
                                                                                                                              Part A
                                                                                                                                   A and
                                                                                                                                     and
                    B contracts was    was unallowable
                                               unallowable for     for Medicare
                                                                       Medicare reimbursement.
                                                                                  reimbursement. The termination claim was calculated
                    based on a retroactive change in accounting practice without CMS approvaL.              approval. Therefore, and
                    pursuant       to Regence's
                    pursuant to Regence's                Medicare
                                          Medicare contracts, none of  contracts, none of the costs claimed were allowable.

                    We recommend
                        recommend that
                                     that Regence
                                          Regence withdraw
                                                  withdraw its
                                                           its termination
                                                               termination claim
                                                                           claim of$I,358,482
                                                                                 of$1,358,482 for PRB costs
                    associated with the Utah Medicare Part A and B contracts.

                    In written comments on our draft report, Regence did not concur with our recommendation or
                    with the
                         the termination
                             termination claim
                                         claim amount.  After reviewing Regence's
                                               amount. After            Regence's comments
                                                                                   comments and
                                                                                              and additional
                                                                                                  additional
                    documentation,
                    documentation, we
                                    we revised our finding
                                                   finding and recommendation to reflect a revised termination
                    claim amount
                          amount of$I,358,482.   Wemaintain
                                  of$1,358,482. We    maintainthat
                                                                thatRegence
                                                                    Regence should
                                                                            should withdraw
                                                                                    withdraw the full claim
                                                                                                      claim amount.
                                                                                                            amount.
Page 2 – Charlene Frizzera


If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov
or Patrick J. Cogley, Regional Inspector General for Audit Services, Region VII, at
(816) 426-3591 or through e-mail at Patrick.Cogley@oig.hhs.gov. Please refer to report number
A-07-08-00278.


Attachment
(~,.~           DEPARTMENT OF HEALTH & HUMAN SERVICES
                                                                                                    Offce
                                                                                                    Officeof
                                                                                                    Offces
                                                                                                           ofInspector
                                                                                                              InspectorGeneral
                                                                                                    OfficesofofAudit
                                                                                                                       General
                                                                                                                AuditServices
                                                                                                                      Services

 ,i~,.::
  ~,.:::1 DEPARTMENT OF HEALTH & HUMAN SERVICES

('''1
                                                                                                    Region
                                                                                                    Region VII
                                                                                                            VII
                                                                                                    60
                                                                                                    6011 East
                                                                                                         East 12th
                                                                                                              12th Street
                                                                                                                   Street
                                                     MAY 22 222009
                                                     MAY       2009                                 Roo284A
                                                                                                    Room284A
                                                                                                    Kansas
                                                                                                    Kansas City.
                                                                                                            Clly.Missouri
                                                                                                                  Missouri64106
                                                                                                                           64106
             Number: A-07-08-00278
      Report Number: A-07-08-00278

                Stimpson
      Mr. Mark Stimpson
      Vice President
      Medicare Northwest
      2890 East Cottonwood Parkway
      P.O. Box 30270
      Salt Lake
           Lake City,
                City, Utah 84130-0270
                           84130-0270

      Dear Mr.
      Dear Mr. Stimpson:

               Stimpson:

      Enclosed is the U.S. Department of Health and Human Services
      Enclosed is the U.S. Deparment of 
                                               Services (HHS),
                                                                                                 (HHS), Office
                                                                                                        Office ofInspector
                                                                                                                ofInspector
      General (OIG), final     final   report    entitled     "Review       of
                                                                            of   Termination Claim for Postretirement  Benefit
      Costs
      Costs MadeMade     by The
                by The Regence       Regence
                               Group for            Group
                                         the Utah Segment."    forforward
                                                            We wil  the Utah                                         of this
                                                                          a copy 
 Segment." We will forward a copy of

      report to the HHS action official noted on the following page for review and any action deemed
      necessary.

      The HHS HHS action
                      action official
                                  official will      make final
                                              wil make         final determination
                                                                       determination asas to
                                                                                           to actions
                                                                                              actions taken
                                                                                                       taken on
                                                                                                             on all
                                                                                                                all matters
                                                                                                                    matters reported.
      We
      We     request
         request that youthat   you
                          respond      respond
                                  to this            to this
                                          official within       official
                                                          30 days           within
                                                                  from the date of 30 days from the date of this letter.
                                                                                                                    letter. Your
      response should present any comments or additional information that you believe may have a
      bearing on the final determination.

      Pursuant to
                to the Freedom of
                   the Freedom      Information Act,
                                 ofInformation   Act, 55 U.S.C.
                                                         U.S.C. §§ 552,
                                                                    552, OIG
                                                                         OIG reports generally are made
      available to the public to
                to the public to the extent that information  in  the report  is not subject to exemptions in
      the Act. Accordingly, this report wil
          Act. Accordingly,              willbe
                                              beposted
                                                  postedononthe
                                                             the Internet
                                                                  Internet at
                                                                           at http://oig.hhs.gov.
                                                                               http://oig.hhs.gov.

      If you have
              have any
                   any questions or comments about this report, please do not hesitate to call me at
      (816)
      (816) 426-3591, or
             426-3591,  or contact
                           contact Jenenne
                                   Jenenne Tambke,
                                           Tambke, Audit
                                                   Audit Manager,
                                                          Manager, at
                                                                    at (573)
                                                                       (573) 893-8338,
                                                                             893-8338, extension
                                                                                         extension 21,
                                                                                                    21, or
                                                                                                        or
      through e-mail at Jenenne.Tambke@oig.hhs.gov.     Please refer to report number A-07-08-00278
                         Jenenne.Tambke(ioig.hhs.gov. Please
      in all correspondence.

                                                                 Sincerely,



                                                                Patrick J.
                                                                        J. Cogley
                                                                Regional Inspector General
                                                                Regional
                                                                  for Audit Services
                                                                 for


      Enclosure
      Enclosure
Page 2 – Mr. Mark Stimpson


Direct Reply to HHS Action Official:

Ms. Deborah Taylor
Acting Director
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, Maryland 21244-1850
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





  REVIEW OF TERMINATION 

CLAIM FOR POSTRETIREMENT 

BENEFIT COSTS MADE BY THE 

 REGENCE GROUP FOR THE 

      UTAH SEGMENT





                    Daniel R. Levinson

                     Inspector General 


                        May 2009

                      A-07-08-00278

                    Office of Inspector General
                                        http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                 EXECUTIVE SUMMARY 


BACKGROUND 


The Regence Group (Regence) administered the Utah Medicare Part A and B operations under
cost reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS) until
the contractual relationship was terminated effective November 30, 2005. Throughout the period
of its Medicare contracts, Regence accounted for the Utah postretirement benefit (PRB) costs
using the pay-as-you-go method.

CMS reimburses a portion of its contractors’ PRB costs. In claiming PRB costs, contractors
must follow cost reimbursement principles contained in the Federal Acquisition Regulation and
applicable Cost Accounting Standards as required by their Medicare contracts. On August 6,
2008, Regence submitted a termination claim of $1,358,482 to seek reimbursement for future
PRB costs that it had not incurred prior to the termination of the Medicare contracts.

OBJECTIVE

Our objective was to determine whether Regence’s termination claim for PRB costs associated
with the Utah Medicare Part A and B contracts was allowable for Medicare reimbursement.

SUMMARY OF FINDING

Regence’s entire termination claim of $1,358,482 in PRB costs for the Utah Medicare Part A and
B contracts was unallowable for Medicare reimbursement. The termination claim was calculated
based on a retroactive change in accounting practice without CMS approval. Therefore, and
pursuant to Regence’s Medicare contracts, none of the costs claimed were allowable.

RECOMMENDATION

We recommend that Regence withdraw its termination claim of $1,358,482 for PRB costs
associated with the Utah Medicare Part A and B contracts.

AUDITEE COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Regence did not concur with our recommendation or
with the termination claim amount. Regence’s written comments, excluding the attachments, are
included as the Appendix.

After reviewing Regence’s comments and additional documentation, we revised our finding and
recommendation to reflect a revised PRB termination claim amount of $1,358,482. We maintain
that Regence should withdraw the full claim amount.




                                             i
                                                 TABLE OF CONTENTS


                                                                                                                         Page

INTRODUCTION..............................................................................................................1 


          BACKGROUND .....................................................................................................1         


          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................1 

               Objective ......................................................................................................1    

               Scope............................................................................................................1   

               Methodology ................................................................................................1        


FINDING AND RECOMMENDATION.........................................................................2 


          FEDERAL REQUIREMENTS................................................................................2                     


          UNALLOWABLE TERMINATION CLAIM ........................................................3 


          RECOMMENDATION ...........................................................................................3               


          AUDITEE COMMENTS AND OFFICE OF 

           INSPECTOR GENERAL RESPONSE ................................................................3 

               Change in Accounting Practice....................................................................3 

               Retroactive Change Permitted in Prior Audit ..............................................4 

               Termination Claim Amount.........................................................................4                   


APPENDIX

          AUDITEE COMMENTS




                                                                ii
                                       INTRODUCTION 


BACKGROUND 


The Regence Group (Regence) administered the Utah Medicare Part A and B operations under
cost reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS) until
the contractual relationship was terminated effective November 30, 2005. Throughout the period
of its Medicare contracts, Regence accounted for the postretirement benefit (PRB) costs
associated with the Utah Medicare Part A and B contracts using the pay-as-you-go method.

CMS reimburses a portion of its contractors’ PRB costs. In claiming PRB costs, contractors
must follow cost reimbursement principles contained in the Federal Acquisition Regulation
(FAR) and applicable Cost Accounting Standards as required by their Medicare contracts.

The Medicare contracts require that costs be estimated (budgeted), accumulated, and reported on
a consistent basis and that any change in accounting practice be submitted to CMS in advance.
Furthermore, the FAR sets forth the allowability requirements and the three methods of
accounting for PRB costs that are permitted under a Government contract.

On August 6, 2008, Regence submitted a termination claim of $1,358,482 to seek reimbursement
for future PRB costs that it had not incurred prior to the termination of the Medicare contracts.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Regence’s termination claim for PRB costs associated
with the Utah Medicare Part A and B contracts was allowable for Medicare reimbursement.

Scope

At the request of CMS, we audited the PRB termination claim of $1,358,482 that Regence
submitted for the Utah Medicare Part A and B contracts’ PRB costs. Achieving our objective
did not require that we review Regence’s overall internal control structure. However, we
reviewed the internal controls related to the PRB termination claim to determine whether the
claim was allowable in accordance with the FAR.

Methodology

We examined Regence’s PRB claim in relation to applicable laws, regulations, and other Federal
requirements. We also reviewed information presented in Regence’s Termination Cost Voucher,
which included support provided by Regence’s consulting actuaries.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions



                                              1

based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                            FINDING AND RECOMMENDATION

Regence’s entire termination claim of $1,358,482 in PRB costs for the Utah Medicare Part A and
B contracts was unallowable for Medicare reimbursement. The termination claim was calculated
based on a retroactive change in accounting practice without CMS approval. Therefore, and
pursuant to Regence’s Medicare contracts, none of the costs claimed were allowable.

FEDERAL REQUIREMENTS

FAR 31.205-6(o) sets forth the requirements and applicable methods of accounting for PRB
costs under a Government contract. PRB costs may include, but are not limited to,
postretirement health care; life insurance provided outside a pension plan; and other welfare
benefits, such as tuition assistance, daycare, legal services, and housing subsidies provided after
retirement. PRB costs do not include retirement income and ancillary benefits, such as life
insurance, that pension plans pay following employees’ retirement.

FAR 31.205-6(o)(2) requires contractors to use one of three methods for measuring and
assigning PRB costs to accounting periods:

   •	 The cash basis (or pay-as-you-go) method recognizes PRB costs when they are paid.

   •	 The terminal funding method recognizes the entire PRB liability as a lump-sum payment
      upon termination of employees. The lump-sum payment must be remitted to an insurer
      or trustee for the purpose of providing PRBs to retirees and is allowable if amortized over
      15 years.

   •	 The accrual method measures and assigns costs according to generally accepted
      accounting principles and pays costs to an insurer or trustee to establish and maintain a
      fund or reserve for the sole purpose of providing PRBs to retirees. The accrual must be
      calculated in accordance with generally accepted actuarial principles and practices as
      promulgated by the Actuarial Standards Board.

The Medicare contract, Appendix B, section II(A), requires that costs be estimated (budgeted),
accumulated, and reported on a consistent basis. In addition, CMS issued to Medicare
contractors the “Budget and Performance Requirements” (BPR), section VI(B), which states that
“as regards the allocation of such costs to the Medicare contract/agreement . . . [a]ny change in
accounting practice for such pension and/or post-retirement benefit costs must be submitted to
CMS in advance for approval.” The BPR further defines a change in accounting practice to
include “a change from cash (pay-as-you-go) accounting to accrual accounting . . . .” In
response to our prior reviews of PRB termination claims, CMS agreed that the Medicare
contracts do not permit retroactive changes in accounting practices without advance CMS
approval; accordingly, CMS issued cost disallowances on that basis.




                                               2

UNALLOWABLE TERMINATION CLAIM

Regence’s contractual relationship with CMS was terminated on November 30, 2005. On
August 6, 2008, Regence submitted a termination claim of $1,358,482 to seek reimbursement for
future PRB costs that Regence had not recognized prior to the termination of the Medicare
contracts.

Throughout the entire period of its Medicare contracts, Regence claimed PRB costs for the Utah
Medicare Part A and B contracts using the pay-as-you-go method. By selecting this method,
Regence signified that, pursuant to the FAR and its Medicare contracts, it would be reimbursed
only for actual paid claims during each year.

Regence based its termination claim for PRB costs on a retroactive change in its contract cost
accounting practice from the pay-as-you-go method to the accrual method. Regence did not
obtain CMS approval before making this change, as required by the BPR. Therefore, Regence’s
claimed reimbursement for $1,358,482 in PRB costs was unallowable.

RECOMMENDATION

We recommend that Regence withdraw its termination claim of $1,358,482 for PRB costs
associated with the Utah Medicare Part A and B contracts.

AUDITEE COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Regence did not concur with our recommendation. A
summary of Regence’s comments and our response follows. Regence’s comments, excluding
four attachments (a previously issued Office of Inspector General report, a copy of Regence’s
audited financial statement, a revised termination claim, and an internal Regence computation
sheet—which we excluded because of their volume), are contained in the Appendix. We have
forwarded the four attachments in their entirety to CMS.

Change in Accounting Practice

Auditee Comments

Regence stated that our report “. . . is based on the erroneous factual predicate that this is a
retroactive accounting change” and said that Regence had claimed costs using Statement of
Financial Accounting Standards (SFAS) 106 accrual accounting since 1994.

Office of Inspector General Response

Although Regence has accounted for PRB costs using SFAS 106 for financial reporting purposes
since 1994, it claimed PRB costs for Medicare reimbursement using the pay-as-you-go method
throughout the entire period of its Medicare contracts. Therefore, calculating its termination
claim using the accrual method represented a retroactive change in its accounting practice that



                                                3

was subject to approval by CMS. We confirmed with CMS that Regence did not seek approval
for such a change.

Retroactive Change Permitted in Prior Audit

Auditee Comments

Regence stated that “. . . even if a contractor has not obtained advance CMS approval for an
accounting change, the OIG still has permitted its retroactive application in some instances.”
Regence cited an earlier audit (A-07-07-00230) in which “. . . OIG permitted [Blue Cross Blue
Shield of] South Carolina to retroactively apply accrual accounting, even where CMS had
explicitly rejected the contractor’s request to change to the accrual method.”

Office of Inspector General Response

Regence did not accurately describe the facts relating to our audit of Blue Cross Blue Shield of
South Carolina’s PRB costs. For that contractor, CMS rejected the initial request to change to
accrual accounting because of the funding mechanism that the contractor used. However, CMS
approved the contractor’s later request to change to accrual accounting after the contractor
established the correct funding mechanism, subject to our audit.

Termination Claim Amount

Auditee Comments

Regence stated that the amount of its PRB termination claim was $1,358,482, not $1,441,707 as
stated in our draft report. Regence explained that its actuarial consulting firm had recalculated
the termination liability based on actual data after the contract termination date.

Office of Inspector General Response

We were unaware of the revised termination voucher until we received Regence’s comments on
our draft report. After obtaining additional documentation from Regence, we determined that
Regence did submit a revised termination claim on August 6, 2008, in the amount of $1,358,482.
We have revised our finding and recommendation to reflect this change. We maintain that
Regence should withdraw the full claim amount.




                                              4

APPENDIX 

APPENDIX
 Page 1 of 4
APPENDIX
 Page 2 of 4
APPENDIX
 Page 3 of 4
APPENDIX
 Page 4 of 4 

